IN THE SUPREME COURT OF THE UNITED STATES

ASARO, VINCENT
Petitioner
vs.

No:

19-0107

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
August 08, 2019
cc:

See Attached List

RICHARD M. LANGONE
LANGONE & ASSOCIATES, PLLC
300 OLD COUNTRY ROAD
SUITE 341
MINEOLA, NY 11501
SHANA-TARA O'TOOLE
DUE PROCESS INSTITUTE
700 PENNSYLVANIA AVENUE, SE
SUITE 560
WASHINGTON, DC 20003
LISA S. BLATT
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, N.W.
WASHINGTON, DC 20005

